                        America the Beautiful


        FEDERAL LABOR RELATIONS AUTHORITY
                 OFFICE OF INSPECTOR GENERAL


                      42nd SEMIANNUAL REPORT
                         TO THE CONGRESS



                           April 1, 2009
                              through
                        September 30, 2009

Date Issued: October 16, 2009
                          EXECUTIVE SUMMARY
This is the 42nd Semi-Annual report issued by the Office of the Inspector General (OIG)
at the Federal Labor Relations Authority (FLRA). This report, submitted pursuant to the
Inspector General Act of 1978, as amended and the Inspector General Reform Act of
2008, summarizes the major activities and accomplishments of the FLRA Inspector
General for the period of April 1, 2009 to September 30, 2009.

During this reporting period, the FLRA Inspector General continued conducting internal
reviews of FLRA programs to help the Chairman update the FLRA programs and
administrative issues and focus on FLRA Union issues. The FLRA Inspector General
conducted and issued a survey regarding FLRA managers and employee’s concerns
and positive opinions. Internal reviews of FLRA’s Freedom of Information Act (FOIA)
Responses, FLRA Purchase Cards and Human Capital Succession Planning were also
conducted. Currently, an internal review on the FLRA’s Case Intake & Publication
Program and FLRA’s Check out Process are being conducted. In addition, an audit on
2009 Information Security and FISMA and an audit on 2009 Financial Statement are
being conducted. Unfortunately, it took the FLRA so long to create its 2008 Financial
Statement Performance Accountability Report; the 2008 Financial Statement Audit was
completed and issued on August 25, 2009.

The FLRA Inspector General also conducted 4 investigations and responded to 28
hotline complaints received during this reporting period. The FLRA Inspector General
participated in two surveys, attended the Council of Integrity and Efficiency Inspector
General Conference and monthly meetings, completed training in FOIA, Senior
Executive Services, Contracting Officer Technical Representative and Information
Security.




                               42nd Semi Annual Report
                                     Page 2 of 43
                     FEDERAL LABOR RELATIONS AUTHORITY

The FLRA is an independent agency responsible for directing the labor-management
relations for 1.9 million non-postal Federal employees worldwide, nearly 1.1 million of
who are exclusively represented in approximately 2,200 bargaining units. The FLRA is
charged by the Federal Service Labor-Management Relations (The Statute), section
7105, with providing leadership in establishing policies and guidance relating to Federal
sector labor-management relations, resolving disputes arising among Federal agencies
and unions representing Federal employees, and ensuring compliance with the Statute.

The FLRA represents the Federal government’s consolidated approach to labor-
management relations. The FLRA is “three components in one,” fulfilling legal statutory
responsibilities through the Authority, the Office of General Counsel and the Federal
Service Impasses Panel. The FLRA has 7 regional offices and one satellite office. The
FLRA also provides staff support to two other organizations – the Foreign Service
Impasses Disputes Panel and the Foreign Service Labor Relations Board.

The Authority is a quasi-judicial body with three full-time Members who are appointed
for 5-year terms by the President with the advice and consent of the Senate. One
Member is appointed by the President to serve as Chair of the Authority and as Chief
Executive and Administrative Officer of the FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases concerning
the negotiability of collective bargaining agreement proposals, unfair labor practice
(ULP) allegations, representation petitions, and exceptions to grievance arbitration
awards. In addition, consistent with its statutory responsibility to provide leadership in
establishing policies and guidance, the Authority assists Federal agencies and unions in
understanding their rights and responsibilities under the Statute and resolving their
disputes through interest-based problem-solving rather than adjudication.

In addition to the three Member Offices, the Authority component of the FLRA also
houses the Office of the Administrative Law Judges, the Office of Policy, Project and
Performance Management, the Office of the Solicitor, the Office of the Executive
Director, the Office of the Inspector General and the Office of the General Counsel.

Office of the Administrative Law Judges: The FLRA’s Administrative Law Judges
(ALJ’s) are appointed by the Authority to conduct due process hearings in accordance
with the Administrative Procedures Act and issue recommended decisions in cases
involving alleged unfair labor practices. ALJ’s also conduct hearings and issue
recommended decisions involving applications for attorney fees and files pursuant to
the Back Pay Act or the Equal Access to Justice Act. In the course of their duties, ALJ’s
conduct pre-hearing conferences, issue subpoenas, rule on motions and evidentiary
issues, and engage in settlement efforts. An ALJ decision may be affirmed, modified, or
reversed, in whole or in part, by the Authority. If no exceptions are filed to an ALJ
decision, the decision is adopted by the Authority and becomes final and binding upon
the parties.

                                42nd Semi Annual Report
                                      Page 3 of 43
Office of Policy, Project & Performance Management: The Office of Policy, Project
& Performance Management is responsible for agency-wide strategic policy and
planning, including the role of Chief Human Capital Officer. The office also provides
oversight with respect to FLRA performance management initiatives. The office drafts,
reviews, and approves all agency-wide instructions and policies; oversees the
Chairman’s and the Administration’s initiatives; and develops agency-wide initiatives,
which upon the Chairman’s final approval, are implemented through the Office of the
Executive Director. The office also houses the agency’s congressional affairs function
and serves as the Chair’s primary point of contact with the Solicitor, Executive Director,
EEO Director, and Inspector General.

Office of the Solicitor: The Office of the Solicitor represents the Authority in court
proceedings before all United States Courts, including the U.S. Supreme Court, U.S.
Courts of Appeals, and Federal District Courts. The office serves as the agency’s in-
house counsel, providing legal advice to all FLRA components. The Solicitor is also the
Designated Agency Ethics Officers under the Ethics in Government Act of 1978, as
amended.

Office of the Executive Director: The Office of the Executive Director provides
operational support to all components of the FLRA, including budget and finance,
human resources, procurement, administrative services, and information resources
management and is responsible for developing and implementing agency-wide
initiatives, such as strategic planning.

Office of the Inspector General: The Office of the Inspector General (OIG) is
responsible for directing and carrying out audits, investigations, evaluations,
inspections, surveys and other oversight activities related to the FLRA programs and
operations. In addition, the Inspector General is authorized to create Inspector General
policies and review new FLRA instructions to promote economic, efficient, and effective
agency programs, which prevent fraud, waste, abuse and mismanagement. The
Inspector General is responsible for keeping the Chair, FLRA and the Congress fully
informed of problems and deficiencies, as well as the necessity for corrective actions.
Public Law 100-504 and the Inspector General Act, as amended, mandate the
requirements, objectivity and independence of Federal Agency Inspectors General. The
Office of Inspector General’s 2008 budget is $333,680.20 which includes salaries for
the Inspector General and Administrative Assistant but is not sufficient for the Inspector
General to perform the requirements and undergo senior level training related to and
required for the Inspector General’s job.

Office of the General Counsel: The Office of the General Counsel (OGC) is a
component of the FLRA. The General Counsel, who is appointed by the President with
the advice and consent of the Senate for a 5-year term, manages all OGC employees.
The OGC includes seven regional offices located in Atlanta, Boston, Chicago, Dallas,
Denver, San Francisco, and Washington, DC and one remote duty location in Diamond
Bar, California. The OGC investigates all unfair labor practice charges filed either by an
employee, a labor union or a federal agency and prosecutes all unfair labor practice

                                42nd Semi Annual Report
                                      Page 4 of 43
complaints before the Authority. The OGC is also responsible for receiving and
processing representation petitions and providing education services to the parties. The
General Counsel reviews all appeals and establishes case-handling policies and
procedures for the OGC.

The Federal Service Impasses Panel: The Federal Service Impasses Panel (FSIP or
the Panel) is composed of seven part-time Members who are appointed by the
President to serve for a 5-year term. One Member is appointed by the President to
serve as the Panel Chair. The Panel resolves bargaining impasses between Federal
agencies and unions representing Federal employees arising from negotiations over
conditions of employment under the Statute and the Federal Employees Flexible and
Compressed Work Schedules Act. If bargaining between the parties, followed by
mediation assistance, proves unsuccessful, the Panel has the authority to recommend
procedures and to take whatever action it deems necessary to resolve the impasse.

The Foreign Service Labor Relations Board: The Foreign Service Labor Relations
Board, (the Board) was created by the Foreign Service Act of 1980 to administer the
Labor-Management Relations Program for Foreign Service employees in the U.S.
Information Agency, the Agency for International Development, and the Departments of
State, Agriculture and Commerce. The Board is composed of three Members, including
the Chairman of the Authority who appoints the other two Members, who serve on a
part-time basis. The Chairman of the Authority also serves as Chairman of the Board.
The FLRA General Counsel acts as General Counsel for the Board, and the Authority
staff provides necessary support to the Board.

The Foreign Service Impasse Disputes Panel: The Foreign Service Impasse
Disputes Panel (the Disputes Panel) was also created by the Foreign Service Act of
1980. The Disputes Panel is composed of five part-time Members who are appointed
by the Chairman of the Foreign Service Labor Relations Board (the FLRA Chair). The
Disputes Panel resolves bargaining impasses between Federal agencies and Foreign
Service personnel in the U.S. Information Agency, the Agency for International
Development, and the Departments of State, Agriculture, and Commerce, over
conditions of employment under the Foreign Service Act of 1980. The FSIP staff
supports the Disputes Panel.

The FLRA's headquarters is located in Washington, D.C. The FLRA maintains regional
offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and Washington,
D.C.

FLRA MISSION STATEMENT

The Federal Labor Relations Authority exercises leadership under the Federal Service
Labor-Management Relations Statute to promote stable, constructive labor relations
that contributes to a more effective Government.



                                42nd Semi Annual Report
                                      Page 5 of 43
The mission of the FLRA is to carry out five primary statutory responsibilities as
efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Statute.

Under the Statute, the primary responsibilities of the FLRA include:

   •   Determining the appropriateness of units for labor organization representation;
   •   Adjudicating exceptions to arbitrator's awards;
   •   Resolving complaints of unfair labor practices; and
   •   Resolving impasses and issues relating to the duty to bargain.

FLRA FOCUS DURING THE PAST 6 MONTHS

During the last 6 months, FLRA management has been focused on restoring the
agency. Although the FLRA does not have a sufficient budget to bring the agency back
to 142 employees, some attorneys and administrative employees have been hired. The
FLRA needs to increase its resource allocations as well as its budget to make sure it
retains a good workforce and continues to improve the agency. OMB has been very
involved with the FLRA in helping it to update its mission, administrative programs and
increased budget.

FLRA management has conducted monthly meetings with management and is now
issuing reports and newsletters which were removed by the last administration.
Management has also reestablished a Technical Council to assist the FLRA and Chief
Information Officer by working on the FLRA’s website and developing a case
management system.

FLRA management has also focused on interacting with FLRA employees, providing
them training, upgrading necessary positions and acknowledging their responsibilities.
Virtually all FLRA employees are very pleased that the FLRA is now a good Federal
agency to work for again.

OFFICE OF INSPECTOR GENERAL

The FLRA Inspector General still only has one employee who is an administrative
assistant. FLRA management has now allocated the Inspector General a sufficient
budget to contract out for the Financial Statement Audit and FISMA Evaluation. The
FLRA Inspector General:

   Conducts and supervises investigations, inspections, internal reviews, audits,
   surveys and evaluations of the programs and operations of the FLRA;

   Provides leadership and coordination, and recommends actions to management,
   which:



                                42nd Semi Annual Report
                                      Page 6 of 43
        1.   Promote economy, efficiency, and effectiveness in agency programs and
             operations;

        2.   Prevent and detect fraud, waste, abuse, and mismanagement of
             Government resources, and

        3.   Inform the Chairman and Congress regarding problems and deficiencies,
             and the progress of corrective actions.


                 OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA leadership, with
an independent and objective assessment of the organization’s efficiency and
effectiveness. This is accomplished through proactive oversight activities of FLRA
operational processes. The Inspector General provides necessary oversight and serves
as a catalyst for improving and maximizing the efficiency and integrity of FLRA
programs and operations. The goal of the Inspector General's work is to maximize the
effectiveness of FLRA programs by evaluating performance and identifying ways to
make these programs more efficient and effective. In addition, the FLRA Inspector
General strives to prevent and detect fraud, waste, abuse, and mismanagement of the
FLRA’s resources and operations, which could adversely impact the organization’s
integrity and ability to perform its mission in a timely, customer responsive manner.

The primary objectives of the Office of Inspector General are as follows:

   •   To evaluate the efficiency and effectiveness of FLRA programs and resource
       management and identify best practices, as well as causative factors, impeding
       the accomplishment of the FLRA mission;

   •   To assist the Chairman and FLRA management in carrying out their
       responsibilities by providing them with objectives and timely information on the
       conduct of FLRA operations, together with the Inspector General’s independent
       analysis, conclusions, and recommendations;

   •   To use evaluations, internal reviews, and more traditional assessment tools of
       audits, inspections, and investigations, to maximize oversight and strengthen
       system and process controls; and

   •   To support the Administration and Congress in maximizing Government integrity
       and efficiency and minimizing the occurrence of fraud, waste, abuse, and
       mismanagement.




                                42nd Semi Annual Report
                                      Page 7 of 43
AUDIT/INTERNAL REVIEW/ INSPECTION ACTIVITIES

During this reporting period the FLRA Office of the Inspector General performed the
following audits and reviews in compliance with Government auditing standards:

2008 Financial Statement Audit                                           Closed

Although the contracted auditors conducted this audit properly and on time, the FLRA
did not create and issue the Performance Accountability Report (PAR) until July, 2009
and the audit was not able to be issued until August 25, 2009. Because the 2008
Strategic Plan only had one strategic goal, the FLRA’s Statement of Net Cost
accumulated all agency costs together and reported the cost in total. The FLRA does
not provide a subsidiary ledger report to support general ledger balances of accounts
payable. Policies and procedures for reviewing/reconciling general ledger account
Balances need to be strengthened to improve their effectiveness. Although the FLRA
does not normally provide payments to commercial entities, it still needs to implement
the requirements of the Improper Payments Information Act and estimate the amount of
improper payments.

This 2008 audit did not identify any financial statement material risks but the major
problem was that it took the FLRA’s budget staff an extreme amount of time to create
and issue the PAR Report. Several matters that were weaknesses in internal controls
and operating efficiencies were identified by this audit. The FLRA does not have
adequate controls established to ensure that obligating documents are recorded on time
to the general ledger. The process of communicating approved procurement actions to
the National Business Center to ensure obligations need to be more efficient. At the
end of FY 2008, the FLRA’s previous Performance Plan, Strategy Plan and
Performance Accountability Report were not placed by previous management on the
FLRA website to be available to the public.

2009 Financial Statement Audit                                           Open

During this reporting period, the 2009 financial statement audit was started and
conducted by Harper, Rains, Knight & Company. So far, no material weaknesses or
fraud issues have appeared and the FLRA is very focused on issuing the 2009
Performance Advisory Report on time for the auditors and Office of Management and
Budget.

2009 Evaluation of FLRA’s FISMA Compliance

An independent evaluation of the quality and compliance of the FLRA’s security
program with applicable Federal computer security laws and regulations as required by
the Federal Information Security Management Act (FISMA). This evaluation affirmed
that the FLRA has not established adequate security controls in many areas. The
weaknesses identified by the evaluation were attributed to the lack of FLRA Information
Technology security policies and procedures, the lack of managing access controls, the

                               42nd Semi Annual Report
                                     Page 8 of 43
lack of proper training and awareness which informs users of the need to protect system
management, operations and technical controls, and the lack of proper contingency
planning and internal controls. Other issues that need to be addressed include
developing an access control program, an awareness and training program, an audit
and accountability program, an information technology security program, a configuration
management program, an electronic authentication program, an incident response and
maintenance program, a media protection program, physical and environmental
protection, a personnel security program, a risk assessment program, system and
communication protection program, and information integrity program.

As with other programs diminished during the last administration, information
technology was not addressed properly. Management has now hired a Chief
Information Officer who is focused on improving and updating the FLRA’s information
technology and security program.


FLRA Inspector General Internal Review of FLRA’s Purchase                 Closed
Card Use

FLRA’s purchase card holders include 2 Administrative Services Division employees,
one Information Research Management employee and one employee in each of the 8
FLRA Regional Offices. FLRA’s Administrative Services Office of Management and
Budget does not have any records regarding purchase card beyond 2003 so we don’t
know when or if this program was implemented when the Federal government purchase
program actually started in 1982.

The decision on who in the FLRA would have purchase cards was made by the former
administrations Executive Director. FLRA Headquarter components (except Information
Resource Management and Administrative Law Judges) do not have purchase cards
and must go through the Administrative Services Division to obtain supplies. Both the
Office of Administrative Law Judge and Washington Regional Office’s FY 2009
purchase budgets were reduced by current management.

The FLRA obtained its purchase cards from Citibank. Currently there is no instruction
or policy on purchasing even though such policy was drafted in 2003, updated by a
contractor in 2007 but never implemented by previous management.

The Approval Officers are responsible for questioning any improper purchases but there
have not been indications of improper purchasing at all over the last 6 years.
Nevertheless, the FLRA must update this program, implement current policy, provide
proper training and consider issuing purchase cards to all Headquarter components.




                               42nd Semi Annual Report
                                     Page 9 of 43
FLRA Inspector General Internal Review of FLRA’s Adherence to the              Closed
Freedom of Information Act (FOIA)

This Inspector General Internal Review of FOIA related to FLRA’s handling of FOIA
requests and appeals in FY 2008 and FY 2009. The Office of the Solicitor (the Chief
FOIA Officer is the Solicitor), the FLRA Authority, Office of General Council and
Regional Offices, the Federal Impasse Panel and Office of Inspector General handle all
FOIA requests for the FLRA. The FLRA follows the FOIA Act and provides requested
FLRA records except those that are protected from disclosure by the FOIA Act.

In FY 2008, some of the FLRA FOIA components handled requests a little longer then
the required 20 business days. The extensive exception was the Office of Solicitor
which handles Headquarter FOIA requests and had difficulty obtaining required
information from prior management. Fortunately, since the beginning of FY 2009 and
under the new administration, FLRA FOIA respondents have handled all FOIA requests
and appeals on time. Although the FOIA request processing costs for FLRA personnel
handling was almost $13,000.00, only one amount of about $239.00 was charged. So
far in FY 2009, since all requests have been responded to quickly with requested
information, no charges have been made.

The FLRA FOIA Officer has updated the FLRA FOIA Instruction and put it on line for
external FLRA FOIA requesters to review and provide comments. The 2008 FOIA
Annual Report which is listed in the FLRA’s reading room and maintained on the FLRA
home page internet as well as the internet of the Department of Justice. Although the
FLRA’s electronic system is not yet completed, the FLRA is now providing an extensive
amount of FOIA information on its homepage for current and future requesters who
have the right to request/access government information.

Inspector General Internal Review of Strategic Management of               Closed
Human Capital Succession Planning

FLRA’s current Chairman has been focusing on the needs for senior level management
in order to place a greater emphasis on human capital management and make sure that
the FLRA has the proper positions, grades and the right skills. Although the FLRA has
not yet identified critical skills and competencies, it will do so when it undertakes
succession planning. The FLRA is currently updating the FLRA Strategic Plan and will
be issuing it in 2010. The FLRA has 12 out of 21 managers who are eligible for
retirement and has about 14 GS-15 employees who could qualify for SES vacancies.
FLRA needs to focus on leadership development for GS-13 and 14 employees over the
next few years to support their possible upgrades.         The FLRA is currently hiring
additional employees for mission critical positions which were diminished in the previous
administration. In order to adopt the best succession planning for FLRA leaders and
key employees, the FLRA senior management and leaders must get together and
discuss this succession planning to prepare the right workforce with skills, knowledge
and capabilities that FLRAS needs to conduct its mission effectively.



                                42nd Semi Annual Report
                                     Page 10 of 43
FLRA Inspector General Survey of Management and Employee                    Closed
Challenges

During this reporting period, on June 10, 2009, the FLRA Inspector General completed
a Survey of FLRA Management and Employee Challenges to help FLRA management
rebuild the FLRA. During the last administration, the FLRA failed to enter into the 21st
century and the FLRA was micromanaged by the senior executives. Since the current
Chairman is focused on updating the FLRA, the Inspector General conducted a survey
with FLRA managers and employees to identify current concerns and positive
accomplishments to help management reinstate the FLRA.

The fact that the 3rd Member, General Counsel and FSIP Panel were not appointed and
working at the FLRA until August 17, 2009, caused an excessive increase of work on
hold and caused some employees to get stressed. The reduction of staff, budget, travel
for handling unfair labor practice charges, reduction of Regional Directors and
Headquarter manager’s authority, elimination of the FLRA Union’s involvement in
management options, lack of administrative program staffs, reduction of positions,
employee orientation and training, eliminating of FLRA instructions and policy in the
previous administration all became challenges of the new administration.

This survey affirmed that almost all FLRA managers and employees felt that current
management has extensively focused on positively addressing the FLRA’s diminished
issues and are focused on improving the FLRA. This survey resulted in a high level of
findings and recommendations which management is addressing.

FLRA Inspector General Internal Review of Case Intake and                          Open
Publications

During this reporting period, the FLRA Inspector General started an internal review of
the FLRA’s Case Intake and Publications (CIP) Office and is almost finished with this.
The FLRA CIP (which was formally called the Case Control Office) has the mission to
receive, manage and process arbitration, negotiability, unfair labor practice charges,
representation , and miscellaneous cases for the FLRA Members of the Authority and
has a similar mission as a clerk of the court. The CIP is the first FLRA office to receive
Authority cases and is the last FLRA office to process and dispose FLRA Authority
cases. The CIP is the point of contact with customers as well as public or private sector
walk in who wish to review FLRA cases. The CIP is handled by the Chief Officer and he
has 5 staff members who handle case processing and maintains cases on the internet.




                                42nd Semi Annual Report
                                     Page 11 of 43
FLRA Inspector General Internal Review of Checkout Process                 Open

During this reporting period, the FLRA Inspector General began an Internal Review of
FLRA’s checkout process focusing on what FLRA requires employees to do when they
formally leave the agency. This internal review is still being conducted.

FLRA Inspector General Survey of Testimonial Subpoena Authority for Inspectors
General

During this reporting period, the FLRA Inspector General participated in the Council of
the Inspectors General on Integrity and Efficiency Survey on the Proposed Testimonial
Subpoena Authority for Inspectors General.

FLRA Inspector General Survey of DJHPM for Department of State

During this reporting period, the FLRA Inspector General conducted a survey created by
the Department of State for DJHPM auditors.

FLRA Inspector General Survey of FLRA’s Strategic Plan

During this reporting period, the FLRA Inspector General completed an FLRA
management survey for all FLRA employees regarding the FLRA’s Strategic Plan.

FLRA Inspector General Investigations and Hotlines

During this reporting period, the FLRA Inspector General received 4 requests for
investigation, 3 of which were related to other Federal Agencies and properly forwarded
to them. The FLRA Inspector General conducted one Administrative Investigation and
handled 28 Hotline calls. Many of these hotline complaints were related to other
Federal Agencies and not the FLRA. Apparently, the FLRA Inspector General’s hotline
number is very accessible to external individuals who immediately call even though their
matters are not related to labor management administrative issues. Of course, the
FLRA Inspector General forwards these types of hotline calls to the proper Federal
Agency’s Office of Inspector General the details of both the Investigations and hotlines
charts are at end of this report.

ADDITIONAL ACTIVITIES

Council of Inspector General Integrity and Efficiency

The FLRA Inspector General attends the Counsel of Inspector General Integrity and
Efficiency monthly meetings on a regular basis to ensure that the FLRA Inspector
General is current and aware of requirements, operations and issues related to
Inspectors General. During this reporting period, the FLRA Inspector General also
attended the annual Counsel of Inspector General Integrity and Efficiency Conference
held in Richmond Virginia.

                                42nd Semi Annual Report
                                     Page 12 of 43
AGENCY ISSUES:

During this reporting period, the FLRA Inspector General participated in FLRA
Management and Employee Meetings and always kept the Chairman aware of
Inspector General Actions.

During this reporting period, the FLRA Inspector General reviewed newly created FLRA
instructions including Security Policy Handbook.

During this reporting period, FLRA management updated the FLRA library, placed an
extensive amount of material on the FLRA internet, began to issue newsletters and
constantly provided appropriate FLRA information to management and employees

During this reporting period, the FLRA Inspector General attended several FLRA
training programs.

Training

During this Reporting Period, the FLRA Inspector General attended Government
Executive conferences which did not require financial expenditures for the FLRA
Inspector General. Ethics training was provided on-line by the FLRA Ethics Officer, as
well as Information System Security Awareness Training. The FLRA Inspector General
also attended the CIGIE OMB 2009 Financial Statement Audit Training during this
period and attended FOIA, Senior Executive and COTR training. The FLRA Inspector
General also attended FLRA training for the Federal Service Impasse Panel and Merit
Systems Protection Board.

Security Issues

During this reporting period, the FLRA did not have any security issues reported.


Inspector General Hotline

Although the Hotline is available on the FLRA Inspector General internet, all of the 28
Hotline contacts were by telephone and most of them related to other Federal agencies
to which they were referred to by the FLRA Inspector General. Some of these
individuals stated they didn’t have the telephone numbers for the proper Inspector
General and some stated that although they called and left a message, they never
received a response.

Inspector General Investigations

During this reporting period, the FLRA Inspector General received 4 investigations, 3 of
which were totally related to other Federal Agencies and properly forwarded to the



                                42nd Semi Annual Report
                                     Page 13 of 43
appropriate Agency. The FLRA Inspector General conducted one FLRA related
investigation during this reporting period.

Inspector General Corrective Actions

During this reporting period the former and current FLRA Chairman and management
have focused extensively on addressing the Inspector General’s findings and
recommendations from 1998 to the 2009. All Inspectors’ General Corrective Actions
were addressed and 33 were closed during this reporting period. Management also
provided estimated completion dates for those findings and recommendations that are
still open. This was the proper thing to do. A list of these actions is provided on the
next page.




                               42nd Semi Annual Report
                                    Page 14 of 43
                         1998 through 2009 Status of Inspector General
                                Findings and Recommendations
   Report No.               Recommendation                        Target Completion                 Response
  Issued Date
Section II         II/1: Ensure that the maintenance of     The IG received Mgt. response   Open -Section II and III
                   records documenting agency actions,      to IG findings and              Estimate completion for
                   policies and procedures are current      recommendations 3/30/09         addressing administrative
                   and distributed to staff.                                                matters concerning
                   II/2Review working case files
                   retention
                                                                                            Agency records FY 2010.
                       (b) Meet with office Directors to
                   develop retention schedules for all
                   records not in current schedule and
                   get for changes to current schedule.
                       (c) Develop retention schedules
                   for new records and make changes to
                   current schedules.
                       (d) Submit new schedule for
                   Archivist’s approval
                       (e) Include approved schedule in
                   updated instruction 1323.1.
                   II/3: Require offices to separate
                   temporary and permanent case files.
                   II/4: Ensure that photographs that
                   are a part of a permanent case file
                   conform to 36 CFR Section 1232.
                   II/5: Establish a Vital Records
                   Program.
                   II/6: Identify vital FLRA records and
                   enact measures to protect and
                   update them, and ensure their
                   availability during emergencies.
                   II/7: Consider the offsite
                   maintenance/storage of copies of
                   vital records.

Section III        III/1. Identify which FLRA records are   The IG received Mgt. response
                   not covered by records schedule or       to IG findings and
                   the General Record Schedules.            recommendations 3/30/09
                   III/2: Develop and submit to NARA
                   proposed records schedules for
                   unscheduled records.
                   III/3: Formalize the creation
                   maintenance/disposition of
                   administrative records to the same
                   extent as program records.
                   III/4: Offer records mgt. Guidance to
                   staff on electronic Records Mgt. And
                   FOIA procedures (including E-FOIA
                   amendments).


Mgt. Letter        1. Update all FLRA delegation of         The IG received Mgt. response   Open 1. and 2. Estimate
4/19/98            authority, memoranda of                  to IG findings and              completion for addressing
Instructions/MOU   understanding, and instructions to       recommendations 3/30/09         Agency Instructions and
Update             reflect current mission.                                                 Policies FY 2010.




                                           42nd Semi Annual Report
                                                Page 15 of 43
                     2. Distribute updated policy to all
                     managers and make them available
                     to all employees in one central folder
                     on the FLRA website along with
                     updated index.




9/28/99 OPM          1. Establish an accountability system    The IG received Mgt. response   Open 1. and 2. Estimate
Review of FLRA       to assess mgt. utilization of human      to IG findings and              completion for addressing
Human Resources      resources.                               recommendations 3/30/09         Human Resources issues
Program                                                                                       FY 2010.

                     2. Study quality of performance
                     feedback and provide strategies for
                     ensuring sufficient quality
                     performance feedback is provided to
                     employees


Audit of the FLRA    2. Review, update and revise as          The IG received Mgt. response   Open 2. Estimate
FY 98 Financial      necessary, FLRA Regulations 2301.1       to IG findings and
Statements and       Financial Mgt. System to reflect         recommendations 3/30/09
                                                                                              completion for addressing
Central Services     contemporary policy, including a                                         Financial Management
Fund (Report No.     requirement for a documented yearly                                      issues FY 2010.
99-01)-September     review of financial mgt. statements by
1999).               the Executive Director and audits of
                     financial statements by independent
                     source on a yearly basis

                                                                                              Open 1. - 3. Estimate
Internal Review of   1. Create centralized Administrative     The IG received Mgt. response
FLRA External        Tracking System.                         to IG findings and
                                                                                              completion for addressing
Affairs May 2000                                              recommendations 3/30/09         matters related to
                     2. Develop/implement FLRA External                                       External Affairs FY 2010.
                     Affairs Policy.

                     3. Create Agency Policy Compliance
                     with the Paperwork Reduction Act.



Internal Review of   15. The FLRA should enhance the          The IG received Mgt. response
FLRA’s Travel        Accounting Manual with the detail of     to IG findings and              Closed 15. thru 18. Every
Program 9/18/01      specific procedures for the              recommendations 3/30/09         FLRA office was provided
                     department staff                                                         with 2009 budget
                                                                                              information and was
                     16. FLRA should develop written                                          involved in the
                     budget information and execution                                         development of their 2010
                     policy that outlines the process;                                        budgets and 2011 budget
                     states procedures utilized and clarify                                   requests. In addition, all
                     FLRA approaches and methodology.
                                                                                              managers received copies
                                                                                              of the 2010 budget
                     17. Significant changes or direction                                     submission and budget
                     from the initial budget submission                                       information is
                     should be communicated to cost                                           communicated to all cost
                     center managers in a timely manner.                                      center managers.



                                              42nd Semi Annual Report
                                                   Page 16 of 43
                  18. FLRA components and
                  subcomponents should develop data
                  to support effective and justifiable
                  resource allocations.

                  19. The FLRA should consider                                            Closed 19. The IRMD
                  separating the information                                              budget is under the
                  Technology budget from the Agency
                  Central Services Fund and place it
                                                                                          responsibility of the CIO
                  under the responsibility of the Chief                                   and is separate from ASD.
                  information Officer.
                                                                                          10. Management will take
                  10. Add an additional FTE to the        The IG received Mgt. response   the recommendation
                  Collaborative Alternative Dispute       to IG findings and              under advisement, but
                  Resolution Office to enable the         recommendations 3/30/09
                                                                                          may not adopt.
                  Authority process of resolution to
                  expand.
                                                                                          Open 2, 4,, 5., 6., and 8.
                  2. Establish an integrated senior       The IG received Mgt. response   Estimated completion for
Follow-up on      leadership/mgt. team to address         to IG findings and              addressing Human
FY/2000 FLRA IG   human capital issues and provide        recommendations 3/30/09         Capital issues FY 2010.
Review of FLRA    justified recommendations to the
Human Capital     Chairman.

                                                                                          Closed 3. Regular
                  3. Reinstate monthly mgt. meetings
                                                                                          managers meetings have
                  during which current mgt. issues are
                  discussed and each manager is
                                                                                          been established.
                  required to brief all managers on
                  major activities.


                  4. FLRA components should be            .
                  briefed on behavior and engage in
                  personality testing. (Myers Briggs
                  Type indicator and/or Strong Interest
                  Inventory). This could be done in –
                  house or at an offsite meeting.

                  5. The Agency needs to compile
                  more human capital statistics to make
                  proper human capital decisions. The
                  following data should be considered
                  to be collected by HRD:
                  - Workforce data,
                  - Skills inventory,
                  - Dates and dispersal of
                  performance appraisal,
                  - Yearly vacancies and time
                  period required to fill them.
                  - Yearly data on number and
                  cost of bonuses, awards and
                  other incentives,
                  - Yearly statistics on
                  grievances,
                  - EEO complaints and costs in
                  dollars,
                  - Costs of promotions and within
                  grade increases, and amount per
                  employee spent for training and its
                  percentage of the operating budget.

                                           42nd Semi Annual Report
                                                Page 17 of 43
                     6. Update the FLRA Strategic Plan
                     and have management revise
                     component action plans and
                     employee work and performance
                     plans with focus on agency-wide
                     results.

                     8. FLRA/HRD should perform an
                     Agency-wide employee skills
                     inventory. It definitely would provide
                     a baseline for skill needs, employee
                     training and future hiring.


Internal Review of   1. Add contemporary safety, health,      The IG received Mgt. response
                                                                                              Open 1. and 2. Estimated
FLRA’s               and security information including the   to IG findings and              completion for OSHA
Occupational         Emergency Plan and a current list of     recommendations 3/30/09         related matters FY 2010.
Safety and Health    FLRA policy to the website as well as
August 2003          the Orientation Package given to new
                     employees.

                     2. Increase Agency-wide training for
                     FLRA safety and health programs.
                     Ensure that all supervisors are
                     knowledge, aware of OSHA
                     requirements and provide
                     contemporary information to their
                     staffs. Include volunteer training to
                     CPR and increase safety evacuation
                     information to include maps of areas
                     to ensure employee safety.
                                                                                              Open 3. Management will
                     3. Director of Administrative Service    The IG received Mgt. response
                                                                                              take the recommendations
                     Division should:                         to IG findings and
                                                              recommendations 3/30/09
                                                                                              under advisement, but
                     (a) Work with building owners and                                        may not adopt.
                     maintenance personnel to ensure that
                     parking garage exterior doors
                     remained locked and secured.
                     (b) Install door locks on all interior
                     doors.


FY 2004 Audit of     1(2) FLRA CIO should:                    The IG received Mgt. response
                                                                                              Open 1.-14. Estimated
FLRA Security                                                 to IG findings and              completion regarding all
Programs             (a) Fully develop disaster recovery,     recommendations 3/30/09         IT Security matters FY
                     IT contingency or operations plan:                                       2010.

                     (b) Provide training to enable
                     personnel to effectively implement all
                     plans and require periodic training;
                     and,

                     (c) After each plan is implemented,
                     conduct and document testing to
                     ensure that each plan is responsive,
                     and periodically reevaluate plans and
                     keep plans current.

                     3(5). FLRA should ensure that a
                     management official authorizes in


                                              42nd Semi Annual Report
                                                   Page 18 of 43
writing the use of each general
support system based on an
acceptance of risks identified with the
system certification process as
described by NIST.

4(6) FLRA should ensure that staff
members adhere to documented
policies and procedures for
performing backups of network file
and mail servers.
(6)8. FLRA CIO should develop a
complete Security Program Plan,
arrange for appropriate personnel to
review it, revise the plan accordingly
and obtain approval cognizant
executive management.


(7)9. FLRA CIO should develop,
document and implement an incident
response plan consistent with NIST
and OMB criteria.


8(10). FLRA should:

(a) Take immediate action to ensure
timely development and
implementation of policies and
procedures necessary to establish
and support FLRA’s information
security program, and;

(b) Develop and implement policies
and procedures to track evaluate, and
monitor FLRA’s information and
information systems security program
in accordance with OMB Circular A-
130, Appendix III; and

(c) Ensure proper and timely
reporting to OMB and Congress.

10(12). FLRA CIO should:                  The IG received Mgt. response
                                          to IG findings and
(a) Develop and implement a formal        recommendations 3/30/09
SDLC methodology based on NIST
guidance and ensure the policy
addresses the following elements:
- Sensitivity of data to be processed
in the system,

- Resources required for adequately
securing the system,

- Input form the equivalent of an
Investment Review Board,

- Authorization for software
modification documentation and
maintenance,


                         42nd Semi Annual Report
                              Page 19 of 43
                  - Budget request to include security
                  resources for the system,

                  - Security controls consistent with
                  and integral to senior management’s
                  standards, and

                  - Security requirements to be
                  included in solicitation
                  documentation.

                  (b) Develop and implement a formal
                  change control policy outlining the
                  procedures needed to ensure that
                  system configuration changes are
                  properly documented, authorized,
                  approved, and tested before being
                  moved into production or
                  implemented.


                  12(14) FLRA CIO should:                   The IG received Mgt. response
                  (a) Develop policies and procedures       to IG findings and
                  requiring periodic review of user         recommendations 3/30/09
                  access controlled, and;

                  (b) Analyze generic accounts
                  currently active on the network
                  operating system to ensure that they
                  are appropriate and that account
                  access are controlled and monitored.


                  14(16) FLRA should obtain the proper      The IG received Mgt. response
                  testing material and scan all FLRA        to IG findings and
                  laptops/computers throughout the          recommendations 3/30/09
                  Agency to see if they contain
                  improper websites.

                                                                                            Open 1. and 2. FISMA
2005 Financial    1. Executive Mgt. should start the        The IG received Mgt. response   compliance is on-going
Statement April   agency towards FISMA compliance           to IG findings and              and estimate closure FY
14, 2005          by providing support for correcting the   recommendations 3/30/09         2010.
                  out-of-compliance situation. This
                  support should consist of
                  memoranda, policy and documented
                  directions, but also of financial and
                  budgetary resource allocation for the
                  goods, services, and personnel
                  needs of the agency to correct the
                  situation. This support, along with the
                  undertaking of corrective actions by
                  the Chief information Officers and
                  other FLRA Staff, should be focused
                  on implementing the provided to the
                  FLRA from the fiscal year 2004
                  FISMA Audit Report.


                  2. Executive management should
                  establish who is to perform Chief


                                           42nd Semi Annual Report
                                                Page 20 of 43
                  Financial Officer duties and              .
                  responsibilities for the agency. This
                  individual should have the
                  appropriate knowledge and skills
                  needed for fulfilling all the necessary   .
                  duties and responsibilities.

                  As an interim measure, other FLRA
                  employees should be given the
                  appropriate training and guidance to
                  establish adequate support for the
                  continued functions. This would
                  ensure that is a sufficient “backup
                  knowledge base” in other employees
                  in the event of a loss of a single
                  critical employee.


                  13. The FLRA should ensure that the       The IG received Mgt. response   Open 13. Estimated
                  PAR is delivered by the regulatory        to IG findings and              completion November
                  due date.                                 recommendations 3/30/09         2009.

2006 Financial    4. Management ensure that FISMA           The IG received Mgt. response
Statement Audit   is complied with and that each year       to IG findings and
April 4, 2006     an independent evaluation of              recommendations 3/30/09
                                                                                            Open 4. and 6. FISMA
                  information security program and                                          compliance is on-going
                  practices of FLRA is done to                                              and estimated closure FY
                  determine the effectiveness of such                                       2010.
                  programs and practices with the
                  deficiencies report with the
                  deficiencies reported under those
                  evaluations being properly addressed
                  and resolved.


                  6. Mgt. has failed to respond to          The IG received Mgt. response
                  weaknesses in control environments        to IG findings and
                  of previous financial statement audits    recommendations 3/30/09
                  and extensive amount of FLRA
                  Inspector General findings and
                  recommendations stated to
                  independent and objective oversight
                  activities. Mgt. needs to evaluate and
                  audit, investigation and oversight
                  report findings and recommendations
                  and provide responses and resolution
                  to all issues addressed in these
                  reports.

                  3. Mgt. must issue PAR reports to         The IG received Mgt. response
                  Financial Statement auditors and          to IG findings and              Open 3. Estimated
                  must be completed in order to render      recommendations 3/30/09         completion FY 2010.
                  an audit opinion.


2007 Internal     1(a) The FLRA Executive Director          The IG received Mgt. response
Review of FLRA    should immediately create a new           to IG findings and              Open 1-3. Administrative
Administrative    instruction for creating FLRA             recommendations 3/30/09         Policies are being
Policy February   administrative instructions.                                              addresses and updated --
2007              (b) The FLRA Executive Director                                           estimated closure FY
                  should immediately review the                                             2010.

                                            42nd Semi Annual Report
                                                 Page 21 of 43
                 cancelled policies and have
                 necessary replacement policies
                 issued as quickly as possible.
                 (c) The FLRA Executive Director
                 should address the review, update,
                 and/or revision of all FLRA
                 administrative instructions issued
                 over 5-7 years ago, especially those
                 related to Human Resources,
                 Security Contracting, Procurement
                 and Financial Statement/Budgeting
                 and Accounting.


                 2. The FLRA Executive Director
                 should immediately review all current
                 instructions without Executive
                 Directors signature and sign or attach
                 a signature to all instructions
                 implemented during the last 7 years
                 that have not been removed.

                 3. The FLRA Executive Director
                 should review the 6 listed instructions
                 that are on the FLRA website and
                 cancellations list. If they are
                 acceptable as current policy, remove
                 them from cancellations list. If they
                 should be cancelled, remove them
                 from the FLRA instruction website.

2008 Internal    1. FLRA Strategic Plan focuses on         The IG received Mgt. response   Open 1. FLRA is
Review of FLRA   mission requirements. Mgt should          to IG findings and              currently revising its
Administrative   include in FLRA’s Strategic Plan,         recommendations 3/30/09         Strategic Plan and the IG
Programs         administrative programs such as                                           is involved in that process.
                 Budget and Performance Integration,                                       Matter is currently being
                 Competitive Sourcing, Electronic
                 Government, Human Capital and
                                                                                           addressed.
                 Financial Performance, Contracting,
                 Emergency Relief, Medical Insurance
                 and Labor Management.

                 2. Management should address the
                 following issues relating to                                              Open 2. Matters related
                                                                                           to Administrative
                 Administrative Programs to support                                        Programs are being
                 improvement, create proper internal
                 controls and eliminate:
                                                                                           reviewed and estimated
                                                                                           completion FY 2010.
                 - What is the purpose of the
                 Administrative Programs;
                 - How are we set-up to achieve this
                 purposes;
                 - What we plan to do with the
                 Administrative Program in the future;
                 - What is the quality and results
                 expected in our plan;
                 - What is defined as success of
                 improvement, and;
                 - How accountable do we consider
                 our achievements.



                                          42nd Semi Annual Report
                                               Page 22 of 43
                   3. Management should create an
                   IRM strategic plan to include what                                       Open 3. Estimated
                   needs to be and will be addressed                                        completion FY 2010.
                   over the next few years and it should
                   contain E-Government and FISMA
                   requirements. As a result of this
                   2007 FISMA evaluation and
                   Management Survey, the FLRA
                   Inspector General recommends that
                   the following issues be addressed.
                   They have not yet been responded
                   to.

                   4. A Feedback mechanism needs to                                         Closed 4. Employees can
                   be established so that FLRA
                   employees can provide their
                                                                                            contact the IRMD email
                   computer information technology and                                      or help desk phone
                   security concerns directly to                                            number and will receive
                   information Resource Management                                          direct timely responses.
                   and receive timely responses to their
                   concerns personally.
                                                                                            Open 5. The FLRA is
                   5. FLRA should address compliance                                        currently developing a
                   with the Government Paperwork                                            case management
                   Elimination Act so that FLRA’s
                   document management infrastructure
                                                                                            infrastructure that
                   would support electronic filing of                                       supports electronic files
                   charges and secure recommendation.                                       and filing. Estimated
                                                                                            completion FY 2010.


                                                                                            Open 10. and 11.
                   10. FLRA management needs to             The IG received Mgt. response   Estimated completion for
                   provide more clarity about what          to IG findings and
                                                                                            addressing Performance
                   constitutes performance management       recommendations3/30/09.
                   and involve employees in defining
                                                                                            Management issues FY
                   successful performance.                                                  2010.

                   11. Performance plans need to be
                   created and implemented for all          .
                   FLRA employees.
                                                                                            Open 14. IG participated
                                                                                            in current strategic
                   14. The FLRA Strategic Plan needs        The IG received Mgt. response   planning efforts in
                   to be updated to include                 to IG findings and
                   administrative programs, as well as,     recommendations 3/30/09
                                                                                            October 2009 and will be
                   mission related program.                                                 a part of finalizing the
                                                                                            strategic plan. Estimated
                                                                                            completion FY 2010.


                                                                                            Open 15. Estimated
                   15. FLRA instructions and policies       The IG received Mgt. response   completion FY 2010
                   that are more than 7 years old should    to IG findings and
                   be updated and implemented as soon       recommendations 3/30/09
                   as possible.

2008 FLRA/IG       1. The FLRA CIO should provide                                           1. Closed 10-13-09
FISMA Evaluation   information technology security
dated: 9/26/08     reporting to the Head of the Agency
                   on a quarterly basis that reflects the
                   requirements of FISMA.


                                             42nd Semi Annual Report
                                                  Page 23 of 43
                                                                        2. Closed 10-13-09
                     2. The CIO should provide
                     information technology security
                     training to all FLRA employees at
                     least on a yearly basis.
                                                                        Open 3-5 Estimated
                     3. The FLRA CIO (or NBC) should                    completion FY 2010.
                     hire a vendor to create an FLRA
                     Contingency Plan in 2009 which
                     should be used to address plans,
                     procedures and technology systems,
                     operations and data on a yearly
                     basis.

                     4. The FLRA CIO should begin in
                     2009 to create and/or update and
                     implement FLRA Information
                     Technology Instructions and add
                     information Technology to its
                     Strategic Plan.

                     5. Although current management has
                     started to focus on and improve the
                     FLRA’s Information Resource
                     Technology System, weaknesses and
                     identified risks should be prioritized
                     and addressed during 2009
                     incompliance with OMB POA&M
                     criteria.

                     6. Spam’s need to be eliminated                    6 Closed 10-13-09
                     more extensively.

                     7. An FLRA Contingency Plan has
                                                                        Open 7 - Estimated
                     still not been created but should be
                     addressed in 2009.
                                                                        completion FY 2010


Financial            1. We recommend the FLRA
Statement Audit      examine the procurement process                    Open 1-7. Matters related
Management           between the FLRA and NBC and                       to Financial Statements
Letter September     ensure the proper policies and                     are being addressed and
30, 2008 and         procedures are in place to ensure                  estimated completion FY
2007(dated July 9,   obligations are recorded into the                  2010
2009)                agency accounting records in an
                     accurate and timely manner. In
                     addition, the FLRA should ensure that
                     the policies and procedures include
                     adequate internal control and
                     monitoring.

                     2. We recommend the FLRA ensure
                     that the agency’s Performance Plan,
                     Strategy Plans, and Performance
                     Accountability Report are readily
                     available to the public by having the
                     documents accessible through the
                     agency’s web site.

                     3. We recommend the FLRA ensure
                     that the agency’s Performance
                     Accountability Report be complete in


                                              42nd Semi Annual Report
                                                   Page 24 of 43
                   final form and submitted by the due
                   date as required in the OMB Circular
                   A-136.


                   4. Although we understand that it is
                   management’s discretion to define
                   the program structure, we suggest
                   management consider enhancing the
                   agency’s level of detail for the
                   Statement of Net Cost so as to
                   provide more information concerning
                   the agency’s mission, strategic goals,
                   functions, activities, services,
                   projects, processes, or other
                   meaningful grouping.

                   5. We recommend that the FLRA
                   obtain a subsidiary ledger report to
                   support the general ledger balance of
                   accounts payable.

                   6. The policies and procedures for
                   reviewing and reconciling general
                   ledger account balances to their
                   subsidiary supporting detail should be
                   strengthened to improve the
                   effectiveness of ensuring both proper
                   statement of general ledger balances
                   and proper detailed support of those
                   balances.

                   7. Although the FLRA does very little
                   payments to commercial entities, the
                   FLRA needs to implement the
                   requirements of IPIA and estimate
                   improper payments.

FLRA/IG Internal   1. The current FLRA /IRM
Review of          employees need specific training
Information        relating to the programs currently                1 - 2. Closed 10-13-09
Resource           being addressed by the Contractors
Technology         and Management.
Contractors
Dated: 1/26/09     2. The CIO should determine
                   whether the FLRA should “build, rent
                   or buy” Information Technology
                   requirements.

                   3. Currently the Global Tech Inc.
                   contractors are needed by the FLRA                3. Management will take
                   next year; the FLRA should hire one               the recommendations
                   or two experienced information                    under advisement, but
                   technology employees in addition to
                                                                     may not adopt.
                   the current FLRA Technology
                   employees in addition to the CIO.
                   This will eliminate the necessity to
                   hire contractors to research and
                   consult in the information Technology
                   program in the future.




                                           42nd Semi Annual Report
                                                Page 25 of 43
                    4. FLRA Mgt. should re-create a
                    FLRA Technology Committee                                                  4. Closed 10-13-09
                    including Headquarters and Regional
                    Office employees to discuss FLRA
                    Information Technology.


FLRA/IG Internal    1. The Chairman FLRA should place           Management Response received
Review of the       the ALJ’s in an Office Suite which has      10-8-09                        1 - 3. Management will
Administrative      doors to keep the Judges confidential                                      take the recommendations
Law Judges Office   and independent where other                                                under advisement, but
March 3, 2009.      employees can not walk through and                                         may not adopt.
                    around to enter other FLRA locations
                    or install locked doors in front and on
                    either side of the current office.

                    Although ALJ office is listed with
                    other listings in the outside hallway,
                    there is no ALJ listing on the main
                    door. A listing should be placed by its
                    main door. This should also be done
                    for all other FLRA Offices (even if it is
                    created by the FLRA rather than
                    purchased).

                    2. The FLRA should create a specific
                    Judge Hearing Room which is large
                    enough for the Judges to hold their
                    WDC hearings with parties and
                    witnesses and is available only for the
                    ALJ when needed. No outside
                    accommodations.

                    3. The FLRA should restore the
                    Library and appoint a Librarian (when
                    the budget increases) to keep it up-
                    to-date.

                    4. A scanner should be provided to
                    the ALJ Office and installed so that                                       4 - 5. Closed 10-13-09
                    their materials does not go out of the
                    office and can’t be obtained by other
                    FLRA employees.

                    5. The Legal Technician should
                    inform the Chief Judge when she is
                    requested information for the Deputy
                    Solicitor of the Office of Solicitor for
                    the U.S. Court.

FLRA/IG Internal    1. During the next administration,          Management Response received   Open 1 through 2.
Review of the       FSIP management should reinstate            10-8-09                        Management will take the
Federal Service     the authority of the FSIP Executive                                        recommendations under
Impasses Panel      Director, Chief Legal Advisor, and
                                                                                               advisement, but may not
dated: March 17,    Panel Members so that FSIP Panel
2009                decisions are handled properly and
                                                                                               adopt.
                    quickly.

                    2. If FSIP cases increase during this
                    administration, FLRA mgt. should




                                              42nd Semi Annual Report
                                                   Page 26 of 43
                  consider increasing the staff to
                  address the FSIP impasses in the
                  proper time.




FLRA/IG Survey    1. Mgt. needs to check all               The IG received Mgt. response   1 - 3 . Closed 10-13-09
on FLRA           employees’ office furniture, chairs      to IG findings and
Management and    and file cabinets to make sure they      recommendations 7/22/09
Employee 2009     are working properly, have enough
Concerns dated:   work space and have working
June 10, 2009     telephones, (printers, fax and
                  scanners), computers, medical
                  provisions, and the proper amount of
                  equipment to conduct their jobs.

                  2. Increase the FLRA mission related
                  (Authority, Office of General Counsel,
                  FSIP, and Collaboration and
                  Alternative Dispute Resolution Office)
                  administrative offices and Office of
                  Inspector General’s staffs of FLRA,
                  as soon as mission related and
                  financially possible.

                  3. Increase budgets in 2010 and
                  2011 so that FLRA mission related
                  employees and IG can travel and
                  interact with parties in person and
                  attorney positions can be updated
                  when necessary to represent the
                  actual level of work they are
                  conducting.

                  4. Continue mgt. interaction with the    The IG received Mgt. response
                  FLRA Union and address its               to IG findings and
                                                                                           4. Closed 7-23-09
                  concerns regarding the Agency Union      recommendations 7-22-09
                  and employees, as soon as possible.


                  5. Increase necessary administrative     The IG received Mgt. response   Open 5 - 7. Management
                  staff to reduce or eliminate the         to IG findings and              will take the
                  current extensive need for contractors   recommendations 7/22/09         recommendations under
                  for Human Resources,
                                                                                           advisement, but may not
                  Financial/Budget and Information
                  Technology.
                                                                                           adopt.

                  6. FLRA needs to address and
                  update its computer system for
                  employees. Regional Offices should
                  maintain their own servers to
                  eliminate problems which began
                  when servers were removed during
                  the last administration. Complete
                  representation databases are
                  necessary so that all of the
                  representation work can be shared by
                  the regions. Proper teleporting and
                  policy needs to be established so that
                  employees who work from home are
                  working properly. Updated software


                                          42nd Semi Annual Report
                                               Page 27 of 43
will be needed to conduct electronic
case management. Also, FLRA
employees who travel to conduct
investigations should have smaller,
lighter laptops, travel printers for
affidavits and communication devices
to reach supervisors and/or parties
while traveling.

7. Deputy Regional Directors should
be provided for the Boston, Denver,
Chicago, and Atlanta Regional
Offices. Deputy Directors are needed
to properly review the work of the
office and provide assistance for their
work which includes proofreading and
editing documents. Upgrade the
Regional Directors who were hired as
GS-15 to the SES level.

8. Modify the current electronic travel   The IG received Mgt. response
system by providing a travel judges       to IG findings and              8. Closed 7-23-09
and attorneys contact on-line if there    recommendations 8/22/09
are problems (which often are), while
the individual is traveling.

9. HR should establish                    The IG received Mgt. response
policy/procedures which require the       to IG findings and              9. Closed 10-13-09
same amount of performance                recommendations 7/22/09
interaction and submission paperwork
for FLRA employees from their
supervisors for every year. All
employees should be required to sign
their performance appraisals, as well
as the supervisor.

10. Require FLRA management to            The IG received Mgt. response   10. Closed 7/23/09
meet no later than monthly with their     to IG findings and
employees to keep them completely         recommendations 7/22/09
informed. They should also obtain
their employees’ comments for issues
related to the FLRA and provide their
comments to senior management and
the Chair, FLRA.


11. FLRA management should                The IG received Mgt. response
permit all FLRA employees, not just       to IG findings and              11 - 14. Closed 10-13-09
some, to work from home at least          recommendations 7/22/09
once (or several times) every pay
period if they request to do so and if
they have the proper internet to
access FLRA.

12. FLRA should provide all new
supervisors training relating to
leadership, performance
management, all administrative and
FLRA statute requirements as well as
properly handling and interacting with
their employees.



                         42nd Semi Annual Report
                              Page 28 of 43
                   13. Although Headquarters phone
                   systems have been updated, but the
                   FLRA needs to address the phone
                   systems in the Regional offices which
                   are causing almost daily problems in
                   performing work. Provide the Staff
                   with cell phone minutes to
                   compensate for the use of personal
                   equipment resulting from the lack of
                   proper phone service.

                   14. FLRA Federal badges need to be
                   updated and provided to all FLRA
                   employees.

                   15. FLRA should provide more free                                        Closed - 15. The FLRA is
                   training to parties on the statute and
                   labor related topics. During the next
                                                                                            providing training to
                   year, the Chair should hold an FLRA                                      parties on the Statute and
                   Conference in Washington, DC for all                                     related labor topics. The
                   employees to provide communication,                                      OGC has a posted
                   administrative information, policy                                       training schedule on the
                   information and training sessions                                        FLRA website. In
                   regarding new FLRA programs.                                             addition, we are providing
                   Orientations for new employees                                           training to FLRA
                   should be conducted once or twice a                                      employees. Closed 10-15-
                   year.
                                                                                            09
                   16. When the FLRA General
                   Counsel is appointed by the
                   President, he/she should discuss                                         16 - 18. Closed 10-13-09
                   Office of General Counsel issues
                   regarding representation cases and
                   unfair labor practice charge case
                   submissions and Office of General
                   Council regulations that need to be
                   updated and addressed with Regional
                   Director, as well as the Chair, FLRA.

                   17. Management needs to focus on
                   career advancement for FLRA
                   administrative employees.

                   18. FLRA employee contact
                   information should be placed back on
                   the public website names, titles,
                   phone numbers, extensions and e-
                   mails to help customers contact the
                   appropriate FLRA people.

                   19. The FLRA should create a
                   certified program for pay increases                                      19. Open – Estimated to
                   for SES successful employees.                                            be completed in 2010.
FLRA/IG Internal   1. The FLRA Authority, FSIP, Human       The IG received Mgt. response   Open 1 - 2. Management
Review of FLRA     Resources Division, Budget and           to IG findings and              will take the
Purchase Cards     Finance Division and Office of           recommendations 7/22/09
July 13, 2009      Inspector General do not have
                                                                                            recommendations under
                   purchase cards to use and must go                                        advisement, but may not
                   through the Administrative Services                                      adopt.
                   Division to obtain supplies and
                   purchases.


                                           42nd Semi Annual Report
                                                Page 29 of 43
                   2. The ASD should update/revise the
                   2007 Purchase Card instruction and
                   submit it to the current Executive
                   Director for approval.



                   3. FLRA management should
                   immediately provide the Washington                                        3. Closed 10-13-09
                   Regional Office necessary 2009
                   Purchase Card finances.

FLRA/IG Internal   1. The FLRA should plan to hire an
Review of FLRA’s   employee (full or part time) to
Adherence to the   manage the FLRA Library and update                                        Open 1. Management will
Freedom of         its FLRA records properly to provide                                      take the recommendations
Information Act    easy access to FLRA records as well                                       under advisement, but
(FOIA) 7/22/09     as making them available on the                                           may not adopt.
                   electronic website.

                   2. FLRA management needs to
                   focus on immediately improving
                   FLRA Regional Office computers as
                                                                                             2. Closed 10-13-09
                   well as providing new scan machines
                   for Regional Offices to handle FOIA
                   (and other cases) properly.

                   3. The Chief FOIA Officer should
                   revise the FLRA’s Frequently asked                                        3. Closed 10-13-09
                   FOIA Questions on Page 2 to include
                   the Office of the Inspector General as
                   the Office that receives FOIA
                   requests for access to records of the
                   IG.


FLRA/IG Internal   1. The FLRA should develop and            The IG received Mgt. response
Review of Human    implement succession planning and         to IG findings and              Open 1. This is being
Capital            design an Executive and Senior            recommendations 9/9/09          addressed in strategic
Succession         leadership program to identify critical                                   planning. Estimated
Planning           skills and competencies which are                                         closure 2010.
8/21/09            needed to achieve current and future
                   programmatic goals. Succession
                   planning should also be included in
                   FLRA’s future budget information.

                   2. FLRA Human Resources must
                   plan and provide necessary training
                   for new supervisors and active
                   supervisors with less then 2 years of                                     2. Closed 10-13-09
                   supervisory experience to address
                   diversity, leadership, capacity and
                   retention.

                   3. FLRA’s Office of Policy and                                            Open 3 - 4. On-going
                   Performance Management needs to                                           strategic planning is
                   update all Human Capital policy and                                       occurring in which these
                   procedures to address the current                                         issues are being
                   administration. This includes the                                         addressed. Estimated
                   Senior Leadership Development                                             closure 2010.
                   Plan.


                                            42nd Semi Annual Report
                                                 Page 30 of 43
4. In order to hire proper and
experienced FLRA senior managers
immediately so that the FLRA mission
is not gaped again – FLRA Senior
Management and top management
leadership should hold periodic
meetings to discuss succession
planning and human capital issues for
the FLRA. Identifying skills levels,
past job experience and current
training could help Agency leaders to
decide on future assignments and
filling senior level vacancies within
the Agency.




                       42nd Semi Annual Report
                            Page 31 of 43
               2009 Office Inspector General Hotline

Case No.    Subject                             Date       Status
                                                Received

2009-H-01   A U.S. Army employee (not           10-3-08    Referred to Denver
            military) in the MPB in Utah                   Regional Office
            wanted to file an ULP against
            Union AFGE 2185 and tried
            several time to call the FLRA
            Denver Regional Office but                     Closed 10-3-08
            could not reach anyone on the
            phone. He also tried to fax but
            was not successful.


2009-H-02   VA Medical Center employee          3-6-09     Referred complainant
            complained that his management                 to the Department of
            improperly handled his ability to              Defense Inspector
            drive his federal car. He                      General.
            previously filed a complaint with
            EEO and felt they did not
            investigate the issue properly.                Closed 3-6-09


2009-H-03   San Francisco Department of       3-13-09      Referred to the FLRA
            Veterans Hospital employee was                 San Francisco
            not given a promotion or notified              Regional Director
            that his position would be
            changed and would not be
            addressed by the Union                         Closed 3-13-09


2009-H-04   Private sector Reading Specialist 3-13-09      Referred to the IG
            alleged that Unions were not                   National Labor
            representing employees properly.               Relations Board.


                                                           Closed 3-13-09




                         42nd Semi Annual Report
                              Page 32 of 43
2009-H-05   Kansas City, Missouri Federal         3-20-09   Inspector General
            Employee has tried to call the                  called the Denver
            Denver Regional Office to file                  Regional Director and
            an ULP charge several times                     provided the
            over the last few weeks and has                 information. The
            had no response.                                Denver Regional
                                                            Director called the
                                                            complainant
                                                            immediately.

                                                            Closed 3-20-09
2009-H-06   Private sector employee from          3-22-09   Referred to the
            Barberton, Ohio stated that                     Department of Labor
            management was withholding                      Inspector General
            her pay and didn’t have any
            reason to do so.

                                                            Closed 3-22-09



2009-H-07   Contractor from U.S. Postal           3-23-09   Referred complainant
            Service concerned from U.S.                     to the Department of
            Postal Service concerned that                   Labor Inspector
            payments to drivers in Denver                   General
            Colorado and North Dakota have
            been taken away and the
            contractors are not receiving the
            payments.                                       Closed 3-23-09


2009-H-08   President of AFGE stated he was       3-25-09   The Inspector General
            trying to get the status of several             discussed this issue
            unfair labor practice charges                   with the Director of the
            filed with the FLRA Washington                  FLRA Washington
            Regional Office and left several                Office who stated he
            calls and e-mails with the                      talks with the
            Director and Deputy Director                    President, AFGE every
            and received no response.                       week and called him
                                                            back immediately on
                                                            3-25-09

                                                            Closed 3-25-09




                         42nd Semi Annual Report
                              Page 33 of 43
2009-H-09   Private Sector employee from        4-23-09   Referred to the
            Las Vegas, Colorado stated he                 Department of Labor
            was provided a job by Andres                  Inspector General
            Transportation in Utah, traveled
            there then was place don hold,
            not paid for 4 days and not given
            money to go back home which                   Closed 4-23-09
            he had no money for
            transportation home.

2009-H-10   Private sector employee from        4-28-09   Referred to the
            Franklin, NC worked for a                     Department of Labor
            company which was ending and                  Office of Inspector
            he and his boss were hired by a               General.
            new company. The complainant
            stated that he was not paid for
            the last week on his job even
            though supervisor received                    Closed 4-28-09
            payment.

2009-H-11   Veterans Hospital employee          4-28-09   Referred to the
            alleged improper handling by his              Department of Defense
            manager who hired two                         Inspector General
            employees to replace him who
            had no training which he had for
            7 months.                                     Closed 4-28-09

2009-H-12   Private sector employee working 4-28-09       Referred to the
            for a Diabetic Health Center told             Department of Labor
            her employee that she would be                Office of Inspector
            resigning next week and was told              General.
            she would not get paid from
            today onto next week.                         Closed 4-28-09
2009-H-13   U.S. Army employee from North       4-30-09   Referred to the
            Carolina was diagnosed with                   Department of Defense
            high blood pressure, put on                   Inspector General.
            medication and told to do
            exercise from 8-10 am every
            morning. His supervisor told
            him that it was not a good time
            for the Agency and that he
            should go in earlier. He
            requested guidance for this                   Closed 4-30-09
            situation

                         42nd Semi Annual Report
                              Page 34 of 43
2009-H-14   Burger King employee                5-4-09    Referred to the
            terminated her job and filled out             Department of Labor
            all required paperwork but did                Office of Inspector
            not receive her payment                       General
            management for her two weeks
            of employment.                                Closed 5-4-09

2009-H-15   NY Daily News Union               5-5-09      Referred to the
            representative is having                      National Labor
            problems interacting with                     Relations Board
            Management throughout the past                Inspector General
            year after the Union lost its
            previous President.                           Closed 5-5-09
2009-H-16   Private Sector Worker from        5-6-09      Referred to the
            Fairfax, VA, stated she worked                Department of Labor
            in a position since Sept 2008 was             Office of Inspector
            told by her supervisor that she               General
            was doing a great job which was
            increased. She stated recently
            her supervisor stated she was not
            working well and she should
            resign                                        Closed 5-6-09

2009-H-17   A Postal Service employee who     5-6-09      Referred to the US
            had Federal Union                             Postal Service Office
            responsibilities with USPS stated             of Inspector General
            his Union was having problems
            with USPS management.                         Closed 5-6-09
2009-H-18   Private Sector employee who       5-15-09     Referred to the
            worked in Suffolk VA for 3 ears               Department of Labor
            had to resign because she was                 Office of Inspector
            divorced and had to go back to                General.
            live with her family. She stated
            she had vacation pay which
            management refused to provide
            since she was leaving.                        Closed 5-15-09


2009-H-19   U.S. Army employee filed a          5-18-09   Referred to the
            complaint with the FLRA for                   Department of Defense
            assistance in determining if the              Inspector General
            U.S. Government is responsible
            for the fair treatment of his
            employment.                                   Closed 5-18-09



                         42nd Semi Annual Report
                              Page 35 of 43
2009-H-20   Department of Navy,                5-19-09   Referred to the FLRA
            Jacksonville, Florida, Union                 Atlanta Regional
            member employee stated that                  Office.
            management promoted an
            employee who was not qualified
            and did not announce the job to
            any other employees.                         Closed 19,2009

2009-H-21   Private sector non union Florida 5-20-09     Referred to
            employee was employed for 3                  Department of Labor
            months was not told by her boss              Office of Inspector
            that anything was wrong, and she             General
            was terminated from her
            position. Immediately another
            individual was hired for her                 Closed 5-20-09
            position.
2009-H-22   Private sector non union         5-29-09     Referred to
            Watford, Michigan stated his                 Department of Labor
            former employee refused to                   Office of Inspector
            provide him his proper pay base.             General.

                                                         Closed 5-29-09

2009-H-23   U.S. Military Female returned      6-5-09    Referred to the
            from Korea and gave birth to a               Department of Defense
            baby girl in the Ft. Hood, Texas             Inspector General.
            Military Hospital. The
            complainant stated that no one in
            the hospital took care of the baby
            and the baby died.                           Closed 6-5-09

2009-H-24   Retired private sector Railroad    6-5-09    Referred to the
            Marino employee who was also                 National Labor
            a Union Member has not                       Relations Board
            received retirement checks                   Inspector General

                                                         Closed 6-9-09

2009-H-25   Private Sector Contractor stated   6-12-09   Referred to the
            several problems that occurred               Department of Labor
            while working for a private                  Inspector General
            sector company.
            .                                            Closed 6-12-09




                         42nd Semi Annual Report
                              Page 36 of 43
2009-H-26   Private Sector employee              6-18-09   Referred to
            resigned from work did not get                 Department of Labor
            paid for his last week, filed a                Office of Inspector
            claim against the Company and                  General
            has not heard back from
            management.                                    Closed 6-18-09

2009-H-27   An FLRA employee complained          6-19-09   The FLRA Inspector
            that old files with information                General looked into
            that was disabling by prior                    this matter and referred
            administration management                      it to the Chairman,
            would be provided to new                       FLRA>
            management by the acting
            officer.                                       Closed 6-24-09
2009-H-28   Civilian Military Technician         8-3-09    The FLRA Inspector
            stated she was under severe                    General referred this to
            practices and needed to consult                the Department of
            with proper management to                      Defense Inspector
            receive proper information                     General.

                                                           Closed 8-3-2009

2009-H-29   Florida State Attorney General       8-6-09    The FLRA Inspector
            Office Employee stated the                     received a requested
            office was violating his rights to             response September
            receive money for compensation                 11, 2009. Referred to
            on time.                                       Department of Social
                                                           Security on September
                                                           18, 2009.
2009-H-30   Federal employee had some            8-18-09   The FLRA Inspector
            complaints about issues subject                referred this issue to
            to payments limitations. He had                the FLRA General
            contacted the FLRA San                         Counsel
            Francisco Regional Office and
            was told his issue was more than
            6 months old and could not be
            handled.                                       Closed 8-18-09

2009-H-31   Postal Service employee had a   8-20-09        The FLRA Inspector
            heart attack and asked his                     General referred this
            manager for advanced leave. His                issue to the U.S. Postal
            manager stated he asked for too                Service Inspector
            much and he would eliminate                    General.
            him from his job
                                                           Closed 8-20-09


                         42nd Semi Annual Report
                              Page 37 of 43
2009-H-32   Defense Finance Account           9-8-09      The FLRA Inspector
            Services employee stated that the             General referred this
            Military Pay Section Hiring                   complaint to the
            Official hired and increased the              Department of Defense
            grades of individuals who were                Inspector General
            not qualified (including the
            complainant.                                  Close 9-8-09

2009-H-33   Former Department of Defense        9-14-09   Referred to FLRA
            U.S. Marine employee had                      Atlanta Regional
            wrong doing done by                           Office Director
            management and would not be
            represented by his Union in
            Georgia.
                                                          Closed 9-14-09

2009-H-34   An AFB civilian employee stated 9-15-09       Referred to
            that he was being violated by the             Department of Defense
            AFB in Georgia. He had not                    Inspector General.
            made any contact with his union
            or Department of Defense.                     Closed 9-15-09

2009-H-35   A private sector employee from      9-17-09   Referred to the
            Voorhees, New Jersey stated he                Department of Justice
            was a victim of attempted                     Inspector General.
            murder and police intimidation
            which the FBI was trying to
            cover up                                      Closed 9-17-09
2009-H-36   A North Carolina Federal            9-21-09   The FLRA Inspector
            employee provided the FLRA                    General provided this
            Inspector General an unfair labor             unfair labor practice
            practice charge appeal of case                charge appeal to the
            previously filed and handled by               FLRA Office of
            the Washington Regional Office.               General Counsel

                                                          Closed 9-21-09




                        42nd Semi Annual Report
                             Page 38 of 43
                                                  TABLE I

            INSPECTOR GENERAL AUDIT REPORTS WITH QUESTIONED COSTS
                                      NUMBER OF REPORTS    DOLLAR VALUE
A. For which no management decision has been             No Questioned Costs
made by the commencement of the reporting                submitted during this
period.                                                    reporting period
B. Which were issued during the reporting              2008 Financial Statement
period?                                                         Audit
                                                         Not completed as of
                                                         September 30, 2008
                                                        The Agency PAR report
C. For which a management decision was made                      and
during the reporting period.                           The Financial Statement
                                                        Audit has not yet been
                                                               issued.
         (i) Dollar value of disallowed costs.

         (ii) Dollar value of costs not disallowed.                .

D. For which no management decision has been
made by the end of the reporting period.                No Questioned Costs

                                                  TABLE II

INSPECTOR GENERAL AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE
PUT TO BETTER USE
                                   NUMBER OF REPORTS   DOLLAR VALUE
A. For which no management decision has been           The Current Chair has
made by the commencement of the reporting               approved the Inspector
period.                                                General’s 2010 Financial
                                                       Statement Audit and
                                                       Information Technology and
                                                       FISMA Audit
                                                         2008 Financial Statement
B. Which were completed during the reporting                 Audit Completed.
period?
                                                                                     $40,336.36
                                                        2009 Financial Statement
                                                        Audit and FISMA Audit not
                                                              yet completed.
C. For which a management decision was made
                                                             Same as Above
during the reporting period.
                (i) Dollar value of                     Current Chair agreed for 2
                recommendations that were                audits for the Inspector    $85,000.00
                agreed to by management.                         General
                (ii) Dollar value of costs that were
                                                                       .
                not agreed to by management.




                                       42nd Semi Annual Report
                                            Page 39 of 43
                                            2008/2009 Financial
D. For which no management                    Statement Audit
decision has been made by the end of    Findings/Recommendations
the reporting period.                     are being addressed by
                                           current management
E. Significant Problems and
Deficiencies
F. Refusals to Provide Information
G. Audit, Inspections and Internal          Some findings and
Review Reports issued.                    recommendations were
                                       stated with “Management will
H. Management decisions which the       take the recommendations
IG does not agree with.                 under advisement but may
                                                not adopt.”



I. Reports issued during this
                                         All OIG Reports have been
   reporting period for which no
                                              responded to by
   management decisions have been
                                        Management with decisions.
   made.




                                     42nd Semi Annual Report
                                          Page 40 of 43
                              FEDERAL LABOR RELATIONS AUTHORITY
                                    Office of the Inspector General
                                    Oversight Activities Summary
                                  April 1, 2009 –September 30, 2009

SUBJECT                                                                                                STATUS

Administrative Investigations                                                                              4
                                                                                                         1 open



Inspector General Hotline Calls:                                                                           28
                                                                                                         Closed


FOIA Requests                                                                                              0


                              FEDERAL LABOR RELATIONS AUTHORITY
                                    Office of the Inspector General
                                 CORRECTIVE ACTION SUMMARY
                                  April 1, 2009 –September 30, 2009

Total Corrective Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 112

New Corrective Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54

Open Corrective Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79

Total Actions Closed This Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .33

Total to be Carried Over . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .79




                                            42nd Semi Annual Report
                                                 Page 41 of 43
Definitions

Actions

Completion by management of either all actions necessary to implement report
recommendations or a management decision that determines no action is necessary.

Funds Be Put To Better Use

The amount of savings estimated by the Inspector General that could be obtained by
implementing report recommendations relating to more efficiency and effectiveness of
programs and operations.

Management Decision

A final decision made by management in response to audit report recommendations
that may include actions concluded to be necessary or a determination that no action is
necessary.

Management Letter

This document brings to the attention of management any of a broad range of issues
and subjects which should be addressed by management, but do not require formal
audit or investigation. Management letters are generally unplanned and are issued to
report on situations found in conjunction with an on-going or completed audit or
investigation. These letters may also be used to expand on previously issued audit
report recommendations.

Questioned Costs

Expenditures questioned by the Inspector General are usually due to the following:

Unsupported costs, which involve inadequate documentation; Disallowed costs, which
involve an alleged violation concurred with by Managements Decision of a law,
regulation, grant, contract, or another agreement; or unnecessary costs which involve
unnecessary or wasteful spending.




                                42nd Semi Annual Report
                                     Page 42 of 43
REPORT FRAUD, WASTE, ABUSE, AND MISMANAGEMENT

                          TO

    THE FEDERAL LABOR RELATIONS AUTHORITY

       OFFICE OF THE INSPECTOR GENERAL

                      HOTLINE

          1-800-331-3572 (24 hr. service)

                   202-218-7744

                     or write to

                        FLRA

            Office of Inspector General

                1400 K Street, NW

                      Suite 250

             Washington, D.C. 20424




                 42nd Semi Annual Report
                      Page 43 of 43
